                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 14-01294-224




    Combined Assessment Program 

             Review of the 

   VA Black Hills Health Care System 

       Fort Meade, South Dakota 





July 25, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                CAP Review of the VA Black Hills Health Care System, Fort Meade, SD



                                              Glossary
                 AIS            acute ischemic stroke
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       VA Black Hills Health Care System
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MRI            magnetic resonance imaging
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PACU           post-anesthesia care unit
                 PRC            Peer Review Committee
                 QM             quality management
                 SDS            same day surgery
                 tPA            tissue plasminogen activator
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                         CAP Review of the VA Black Hills Health Care System, Fort Meade, SD



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objective and Scope ..................................................................................................           1

  Objective .................................................................................................................    1

  Scope......................................................................................................................    1


Reported Accomplishment........................................................................................                  2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 6

  Medication Management......................................................................................... 8

  Coordination of Care ............................................................................................... 9

  AIS Care ................................................................................................................. 10

  CLC Resident Independence and Dignity ............................................................... 12

  MRI Safety .............................................................................................................. 14


Appendixes
  A. Facility Profile ....................................................................................................      16

  B. Strategic Analytics for Improvement and Learning ............................................                              17

  C. VISN Director Comments ..................................................................................                  20

  D. Facility Director Comments ...............................................................................                 21

  E. OIG Contact and Staff Acknowledgments .........................................................                            29

  F. Report Distribution .............................................................................................          30

  G. Endnotes ...........................................................................................................       31





VA OIG Office of Healthcare Inspections
                                CAP Review of the VA Black Hills Health Care System, Fort Meade, SD



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care. We
conducted the review the week of May 19, 2014.

Review Results:          The review covered seven activities.                    We made no
recommendations in the following two activities:

 Coordination of Care

 Community Living Center Resident Independence and Dignity

The facility’s reported accomplishment was improved efficiency and utilization in
orthopedics.

Recommendations: We made recommendations in the following five activities:
Quality Management: Ensure that the Clinical Executive Council documents its
discussion of Peer Review Committee quarterly summary reports. Implement a local
observation policy that includes all required elements. Reassess observation criteria
and utilization timely when conversions from observation bed status to acute
admissions are over 30 percent. Perform continuing stay reviews on at least 75 percent
of patients in acute beds. Ensure the Surgical Staff Committee meets monthly, includes
the Chief of Staff as a member, and documents its review of National Surgery Office
reports. Require that the quality of entries in the electronic health record is reviewed
and data analyzed at least quarterly and that the review includes most services. Ensure
the Blood Utilization Committee member from Surgery Service consistently attends
meetings.

Environment of Care: Ensure infection prevention materials are available for eye clinic
patients, visitors, and family members.     Reprocess ophthalmology lenses and
pachymetry probes in accordance with manufacturers’ instructions.

Medication Management: Document patient learning assessments within 8 hours of
admission.

Acute Ischemic Stroke Care: Develop an acute ischemic stroke policy that addresses
all required items, and fully implement the policy. Complete and document National
Institutes of Health stroke scales for each stroke patient. Post stroke guidelines on all
acute inpatient units. Collect and report to the Veterans Health Administration the
percent of eligible patients given tissue plasminogen activator, the percent of patients
with stroke symptoms who had the stroke scale completed, and the percent of patients
screened for difficulty swallowing before oral intake.




VA OIG Office of Healthcare Inspections                                                           i
                                CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


Magnetic Resonance Imaging Safety: Conduct contrast reaction drills in the magnetic
resonance imaging mobile unit at the Hot Springs division. Ensure all designated
Level 1 ancillary staff receive annual level-specific magnetic resonance imaging safety
training.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–28, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                           ii
                                CAP Review of the VA Black Hills Health Care System, Fort Meade, SD



                               Objective and Scope 

Objective
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objective of the CAP review is to
conduct recurring evaluations of selected health care facility operations, focusing on
patient care quality and the EOC.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

      QM

      EOC

      Medication Management

      Coordination of Care

      AIS Care

      CLC Resident Independence and Dignity

      MRI Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
May 23, 2014, and was done in accordance with OIG standard operating procedures for
CAP reviews. We also asked the facility to provide the status on the recommendations
we made in our previous CAP report (Combined Assessment Program Review of the
VA Black Hills Health Care System, Fort Meade, South Dakota, Report
No. 11-03661-76, January 31, 2012). We made a repeat recommendation in QM.




VA OIG Office of Healthcare Inspections                                                          1
                                CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


We surveyed employees regarding patient safety and quality of care at the facility. An
electronic survey was made available to all facility employees, and 319 responded. We
shared summarized results with the facility Director.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

Improved Efficiency and Utilization in Orthopedics
The facility’s orthopedics team took part in a specialty collaborative where they worked
to optimize time utilization and improve operation measures. To achieve these
outcomes, they mapped out provider time and found ways to add additional time slots
during the day by reducing computer log on and log off time through laptop
implementation. They optimized operating room time by adding extra surgeries daily.
In addition, the group reduced missed opportunity rates through the adoption of
nontraditional care modalities, including the use of clinical video telehealth for remote
community based outpatient clinics, secure messaging, and the use of phone
encounters.




VA OIG Office of Healthcare Inspections                                                          2
                                          CAP Review of the VA Black Hills Health Care System, Fort Meade, SD



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                         Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
 X     The protected peer review process met              Twelve months of Clinical Executive Council
       selected requirements:                             meeting minutes reviewed:
        The PRC was chaired by the Chief of Staff         Unusual findings from all 4 quarters’ summary
          and included membership by applicable             reports were not documented as discussed.
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                    3
                                          CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


NM             Areas Reviewed (continued)                               Findings (continued)
 X     Observation bed use met selected                    The facility did not have a local policy.
       requirements:
                                                          Seven months of data reviewed:
        Local policy included necessary elements.
                                                           For 4 months, 30 percent or more of
        Data regarding appropriateness of
                                                            observation patients were converted to acute
          observation bed usage was gathered.
                                                            admissions, and the facility had not
        If conversions to acute admissions were            reassessed observation criteria or utilization
          consistently 30 percent or more,                  during that time.
          observation criteria and utilization were
          reassessed timely.
 X     Staff performed continuing stay reviews on at      Nine months of continuing stay data reviewed:
       least 75 percent of patients in acute beds.         For all 9 months, less than 75 percent of
                                                             acute inpatients were reviewed.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected            The Surgical Staff Committee only met
       requirements:                                        6 times over the past 12 months.
        An interdisciplinary committee with
                                                          Six sets of Surgical Staff Committee meeting
          appropriate leadership and clinical
                                                          minutes reviewed:
          membership met monthly to review surgical
                                                           The Chief of Staff was not a member.
          processes and outcomes.
                                                           There was no evidence that National Surgery
        Surgical deaths with identified problems or
                                                             Office reports were reviewed.
          opportunities for improvement were
          reviewed.
        Additional data elements were routinely
          reviewed.
        Critical incidents reporting processes were
          appropriate.
 X     The process to review the quality of entries in     There was no evidence that the quality of
       the EHR met selected requirements:                   entries in the EHR was reviewed. This was a
        A committee was responsible to review              repeat finding from the previous CAP review.
          EHR quality.
                                                          Twelve months of Medical Records Review
        Data were collected and analyzed at least        Committee meeting minutes reviewed:
          quarterly.
                                                           EHR quality data was not analyzed quarterly.
        Reviews included data from most services
                                                           The review of EHR quality did not consistently
          and program areas.
                                                            include EHRs from Medicine, Surgery,
                                                            Nursing, Dental, Primary Care, and
                                                            Rehabilitation Services.
       The policy for scanning non-VA care
       documents met selected requirements.



VA OIG Office of Healthcare Inspections                                                                      4
                                          CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


NM              Areas Reviewed (continued)                              Findings (continued)
 X     The process to review blood/transfusions            Three sets of Blood Utilization Committee
       usage met selected requirements:                    meeting minutes reviewed:
        A committee with appropriate clinical              The clinical representative from Surgery
         membership met at least quarterly to review         Service missed two of the three meetings.
         blood/transfusions usage.
        Additional data elements were routinely
         reviewed.
        Overall, if significant issues were identified,
         actions were taken and evaluated for
         effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
        Overall, the facility had a comprehensive,
         effective QM/performance improvement
         program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that the Clinical Executive Council document its discussion of Peer
Review Committee quarterly summary reports, including unusual findings or patterns.

2. We recommended that a local observation bed policy that includes all required elements be
implemented.

3. We recommended that processes be strengthened to ensure that when conversions from
observation bed status to acute admissions are over 30 percent, observation criteria and
utilization are reassessed timely.

4. We recommended that processes be strengthened to ensure that continuing stay reviews
are performed on at least 75 percent of patients in acute beds.

5. We recommended that the Surgical Staff Committee meet monthly, include the Chief of
Staff as a member, and document its review of National Surgery Office reports.

6. We recommended that processes be strengthened to ensure that the quality of entries in
the electronic health record is reviewed and data analyzed at least quarterly and that the review
of electronic health record quality includes most services.

7. We recommended that processes be strengthened to ensure that the Blood Utilization
Committee member from Surgery Service consistently attends meetings.




VA OIG Office of Healthcare Inspections                                                                    5
                                          CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether the facility
met selected requirements in SDS, the PACU, and the eye clinic.b

At the Fort Meade division, we inspected the locked inpatient mental health unit; the medical
and surgical inpatient unit; the intensive care unit; the PACU; the CLC; the emergency
department; and the primary care, podiatry, and eye clinics. At the Hot Springs division, we
inspected the urgent care, podiatry, and eye clinics. Additionally, we reviewed relevant
documents, conversed with key employees and managers, and reviewed 16 employee training
records (13 PACU and 3 eye clinic). The table below shows the areas reviewed for this topic.
The area marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

 NM         Areas Reviewed for General EOC                                    Findings
     EOC Committee minutes reflected sufficient
     detail regarding identified deficiencies,
     corrective actions taken, and tracking of
     corrective actions to closure.
     An infection prevention risk assessment was
     conducted, and actions were implemented to
     address high-risk areas.
     Infection Prevention/Control Committee
     minutes documented discussion of identified
     problem areas and follow-up on implemented
     actions and included analysis of surveillance
     activities and data.
     Fire safety requirements were met.
     Environmental safety requirements were met.
     Infection prevention requirements were met.
     Medication safety and security requirements
     were met.
     Auditory privacy requirements were met.
     The facility complied with any additional
     elements required by VHA, local policy, or
     other regulatory standards.
        Areas Reviewed for SDS and the PACU
NA Designated SDS and PACU employees
 for received bloodborne pathogens training
SDS during the past 12 months.
NA Designated SDS employees received medical
     laser safety training with the frequency
     required by local policy.
NA Fire safety requirements in SDS and on the
 for PACU were met.
SDS




VA OIG Office of Healthcare Inspections                                                                    6
                                          CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


 NM      Areas Reviewed for SDS and the PACU                                  Findings
                       (continued)
NA     Environmental safety requirements in SDS
 for   and on the PACU were met.
SDS
NA     SDS medical laser safety requirements were
       met.
NA     Infection prevention requirements in SDS and
 for   on the PACU were met.
SDS
NA     Medication safety and security requirements
 for   in SDS and on the PACU were met.
SDS
NA     Auditory privacy requirements in SDS and on
 for   the PACU were met.
SDS
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Eye Clinic
       Designated eye clinic employees received
       laser safety training with the frequency
       required by local policy.
       Environmental safety requirements in the eye
       clinic were met.
  X    Infection prevention requirements in the eye        The eye clinic had no infection prevention
       clinic were met.                                     educational materials for patients, visitors, or
                                                            family members.
                                                           Employees did not reprocess ophthalmology
                                                            lenses and pachymetry probes according to
                                                            manufacturers’ instructions.
       Medication safety and security requirements
       in the eye clinic were met.
       Laser safety requirements in the eye clinic
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

8. We recommended that processes be strengthened to ensure that infection prevention
educational materials are available for eye clinic patients, visitors, and family members.

9. We recommended that processes be strengthened to ensure that employees reprocess
ophthalmology lenses and pachymetry probes in accordance with manufacturers’ instructions
and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                        7
                                          CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.c

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 34 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The area
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
 X     Clinicians conducted inpatient learning            For 17 patients (50 percent), learning
       assessments within 24 hours of admission or         assessments were conducted more than
       earlier if required by local policy.                8 hours after admission.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

10. We recommended that processes be strengthened to ensure that patient learning
assessments are documented within 8 hours of admission and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    8
                                          CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.d

We reviewed relevant documents, and we conversed with key employees. Additionally, we
reviewed the EHRs of three patients with specific diagnoses who were discharged from
July 1, 2012, through June 30, 2013. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

 NM                     Areas Reviewed                                        Findings
        Patients’ post-discharge needs were
        identified, and discharge planning addressed
        the identified needs.
        Clinicians provided discharge instructions to
        patients and/or caregivers and validated their
        understanding.
        Patients received the ordered aftercare
        services and/or items within the
        ordered/expected timeframe.
        Patients’ and/or caregivers’ knowledge and
        learning abilities were assessed during the
        inpatient stay.
        The facility complied with any additional
        elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    9
                                          CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


AIS Care
The purpose of this review was to determine whether the facility complied with selected
requirements for the assessment and treatment of patients who had an AIS.e

We reviewed relevant documents and the EHRs of 13 patients who experienced stroke
symptoms, and we conversed with key employees. We also conducted onsite inspections of the
emergency department, one urgent care clinic, one critical care unit, and two acute inpatient
units. The table below shows the areas reviewed for this topic. The areas marked as NM did
not meet applicable requirements and needed improvement. Any items that did not apply to this
facility are marked NA.

NM                      Areas Reviewed                                        Findings
 X     The facility’s stroke policy/plan/guideline         The facility did not have an AIS policy.
       addressed all required items.
 X     Clinicians completed the National Institutes of     None of the nine applicable EHRs contained
       Health stroke scale for each patient within the      documented evidence of completed stroke
       expected timeframe.                                  scales.
       Clinicians provided medication (tPA) timely to
       halt the stroke and included all required steps,
       and tPA was in stock or available within
       15 minutes.
 X     Stroke guidelines were posted in all areas          Stroke guidelines were not posted on the two
       where patients may present with stroke               acute inpatient units.
       symptoms.
       Clinicians screened patients for difficulty
       swallowing prior to oral intake of food or
       medicine.
       Clinicians provided printed stroke education to
       patients upon discharge.
       The facility provided training to staff involved
       in assessing and treating stroke patients.
 X     The facility collected and reported required        There was no evidence that the following data
       data related to stroke care.                         were consistently collected and reported to
                                                            VHA:
                                                            o Percent of eligible patients given tPA
                                                            o Percent of patients with stroke symptoms
                                                               who had the stroke scale completed
                                                            o Percent of patients screened for difficulty
                                                               swallowing before oral intake
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

11. We recommended that the facility develop an acute ischemic stroke policy that addresses
all required items, that the policy be fully implemented, and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   10
                                          CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


12. We recommended that processes be strengthened to ensure that clinicians complete and
document National Institutes of Health stroke scales for each stroke patient and that compliance
be monitored.

13. We recommended that stroke guidelines be posted on all acute inpatient units.

14. We recommended that the facility collect and report to the VHA the percent of eligible
patients given tissue plasminogen activator, the percent of patients with stroke symptoms who
had the stroke scale completed, and the percent of patients screened for difficulty swallowing
before oral intake.




VA OIG Office of Healthcare Inspections                                                                   11
                                          CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


CLC Resident Independence and Dignity
The purpose of this review was to determine whether the facility provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.f

We reviewed 12 EHRs of residents (10 residents receiving restorative nursing services and
2 residents not receiving restorative nursing services but candidates for services). We also
observed 43 residents during 2 meal periods, reviewed 6 employee training/competency records
and other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. Any items that did not apply to this facility are marked NA. The
facility generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                        Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.




VA OIG Office of Healthcare Inspections                                                                   12
                                          CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


NM        Areas Reviewed for Assistive Eating                                  Findings
         Devices and Dining Service (continued)
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   13
                                          CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


MRI Safety
The purpose of this review was to determine whether the facility ensured safety in MRI in
accordance with VHA policy requirements related to: (1) staff safety training, (2) patient
screening, and (3) risk assessment of the MRI environment.g

We reviewed relevant documents and the training records of 25 employees (21 randomly
selected Level 1 ancillary staff and 4 designated Level 2 MRI personnel), and we conversed
with key managers and employees. We also reviewed 29 EHRs of randomly selected patients
who had an MRI January 1–December 31, 2013. Additionally, we conducted a physical
inspection of the MRI area at the Fort Meade division. The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                     Findings
 X     The facility completed an MRI risk              Contrast reaction drills were not conducted in
       assessment, there were documented                the MRI mobile unit at the Hot Springs
       procedures for handling emergencies in MRI,      division.
       and emergency drills were conducted in the
       MRI area.
       Two patient safety screenings were conducted
       prior to MRI, and the secondary patient safety
       screening form was signed by the patient,
       family member or caregiver and reviewed and
       signed by a Level 2 MRI personnel.
       Any MRI contraindications were noted on the
       secondary patient safety screening form, and
       a Level 2 MRI personnel and/or radiologist
       addressed the contraindications and
       documented resolution prior to MRI.
 X     Level 1 ancillary staff and Level 2 MRI         Five Level 1 ancillary staff did not receive
       personnel were designated and received           level-specific annual MRI safety training.
       level-specific annual MRI safety training.
       Signage and barriers were in place to prevent
       unauthorized or accidental access to Zones III
       and IV.
       MRI technologists maintained visual contact
       with patients in the magnet room and two-way
       communication with patients inside the
       magnet, and the two-way communication
       device was regularly tested.
       Patients were offered MRI-safe hearing
       protection for use during the scan.
       The facility had only MRI-safe or compatible
       equipment in Zones III and IV, or the
       equipment was appropriately protected from
       the magnet.
       The facility complied with any additional
       elements required by VHA or local policy.



VA OIG Office of Healthcare Inspections                                                                   14
                                          CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


Recommendations

15. We recommended that processes be strengthened to ensure that contrast reaction drills are
conducted in the magnetic resonance imaging mobile unit at the Hot Springs division and that
compliance be monitored.

16. We recommended that processes be strengthened to ensure that all designated
Level 1 ancillary staff receive annual level-specific magnetic resonance imaging safety training
and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   15
                                       CAP Review of the VA Black Hills Health Care System, Fort Meade, SD
                                                                                               Appendix A


    Facility Profile (Fort Meade/568) FY 2014 through May 20141
Type of Organization                                                                      Tertiary
Complexity Level                                                                          3-Low complexity
Affiliated/Non-Affiliated                                                                 Affiliated
Total Medical Care Budget in Millions                                                     $170.9
Number of:
    Unique Patients                                                                      17,771
    Outpatient Visits                                                                    162,927
    Unique Employees2                                                                    805
Type and Number of Operating Beds (April 2014):
    Hospital                                                                             44
    CLC                                                                                  104
    Mental Health                                                                        112
Average Daily Census (April 2014):
    Hospital                                                                             20
    CLC                                                                                  58
    Mental Health                                                                        87
Number of Community Based Outpatient Clinics                                              10
Location(s)/Station Number(s)                                                             Rapid City/568GA
                                                                                          Pierre/568GB
                                                                                          Newcastle/568HA
                                                                                          Gordon/568HB
                                                                                          Alliance/568HC
                                                                                          Pine Ridge/568HF
                                                                                          Gering/568HH
                                                                                          Rosebud/568HJ
                                                                                          Eagle Butte/568HM
                                                                                          Winner/568HP
VISN Number                                                                               23




1
    All data is for FY 2014 through May 2014 except where noted. 

2
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                      16
                                                                CAP Review of the VA Black Hills Health Care System, Fort Meade, SD
                                                                                                                        Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)3




3
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                         17
                                                      CAP Review of the VA Black Hills Health Care System, Fort Meade, SD



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                               18
                                                                                                 CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


                                                                         Metric Definitions
 Measure                       Definition                                                                           Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)    A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                              A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                           A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                 A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                          A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)       A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                        A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                    A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                               A higher value is better than a lower value
 Mental Health Status          Mental health status (outpatient only, the Veterans RAND 12 Item Health Survey)      A higher value is better than a lower value
 Mental Health Wait Time       Mental health wait time for new and established patients (top 50 clinics)            A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                 A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)    A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)             A higher value is better than a lower value
 PSI                           Patient safety indicator                                                             A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                     A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                       A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction              A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                 A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction            A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure               A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                              A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                  A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                       A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)           A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                           19
                                   CAP Review of the VA Black Hills Health Care System, Fort Meade, SD
                                                                                           Appendix C
                                  VISN Director Comments



               Department of
               Veterans Affairs                                      Memorandum


           Date:        June 23, 2014

          From:         Director, VA Midwest Health Care Network (10N23)

       Subject:         CAP Review of the VA Black Hills Health Care System,
                        Fort Meade, SD

             To:        Director, Seattle Office of Healthcare Inspections (54SE)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)

       I concur with VA Black Hills Health Care System, Ft. Meade, SD response
       to the Draft OIG CAP completed May 19–May 23, 2014.

       If you have any questions, you may contact the Director at VA Black Hills
       Health Care System at (605) 347-2511 Extension 7170.


          (original signed by:)
       Steven C. Julius, M.D.




VA OIG Office of Healthcare Inspections                                                            20
                                     CAP Review of the VA Black Hills Health Care System, Fort Meade, SD
                                                                                             Appendix D
                             Facility Director Comments



               Department of
               Veterans Affairs                                        Memorandum


           Date:       June 23, 2014

          From:        Director, VA Black Hills Health Care System (568/00)

       Subject:        CAP Review of the VA Black Hills Health Care System,
                       Fort Meade, SD

             To:       Director, VA Midwest Health Care Network (10N23)

       Attached please find our VHA Facility response to the Draft OIG CAP
       completed May 19–May 23, 2014.

       If you have any questions, you may contact the Director at VA Black Hills
       Health Care System at (605) 347-2511, Extension 7170.


             (original signed by:)
       Stephen R. DiStasio, FACHE
       Director




VA OIG Office of Healthcare Inspections                                                              21
                                CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Clinical Executive Council document
its discussion of Peer Review Committee quarterly summary reports, including unusual
findings or patterns.

Concur

Target date for completion: October 31, 2014

Facility response: Peer Review Committee summary reports are presented, reviewed
and any trends identified by the Clinical Executive Council (CEC) every quarter. The
CEC minutes will reflect the analysis of the presented information.

Compliance will be validated by submission of excerpt of minutes that reflect analysis of
data and actions related to the data if indicated for two reporting periods of FY 14
Quarter 2 and Quarter 3.

Recommendation 2. We recommended that a local observation bed policy that
includes all required elements be implemented.

Concur

Target date for completion: October 1, 2014

Facility response: Policy COS-49 Facility Observation Policy was drafted and approved
by the Clinical Executive Council on May 6, 2014, approved at the Executive Leadership
Board on May 29, 2014 and signed by the Medical Center Director and published on the
facility policy Share Point on June 20, 2014. Education was implemented and
continued on the draft policy through the duration of the process of approval and was
completed by May 5, 2014 by 100% of the affected employees.

Validation will be submission of signed policy verifying publication.

Recommendation 3. We recommended that processes be strengthened to ensure that
when conversions from observation bed status to acute admissions are over 30 percent,
observation criteria and utilization are reassessed timely.

Concur

Target date for completion: October 1, 2014




VA OIG Office of Healthcare Inspections                                                         22
                                CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


Facility response: Data on conversion from observation bed status to acute admissions
is included at the weekly Wednesday Leadership meeting as new data becomes
available. This process was initiated on April 23, 2014 and current data demonstrates
that FY YTD data for conversions is at 25.6%, with May 2014 conversions being at
17.6%. New 48 hour observation status per Directive initiated on April 28, 2014.

Evidence of compliance will be the VA Black Hills Health Care System Observation
conversion data through August 2014 and excerpts from Clinical Executive Council
minutes reflecting presentation, discussion and analysis of data with action plans
required for conversion data above 30%.

Recommendation 4. We recommended that processes be strengthened to ensure that
continuing stay reviews are performed on at least 75 percent of patients in acute beds.

Concur

Target date for completion: October 1, 2014

Facility response: Continued stay review completion data for review is included at the
weekly Wednesday Leadership meeting. This process was initiated on June 4, 2014
and current data demonstrates 100% of continued stay reviews completed for April and
May 2014.

Evidence of compliance will be the VA Black Hills Health Care System Continued Stay
review completion rates through August 2014 demonstrating 3 consecutive months of
75% or greater review.

Recommendation 5. We recommended that the Surgical Staff Committee meet
monthly, include the Chief of Staff as a member, and document its review of National
Surgery Office reports.

Concur

Target date for completion: December 31, 2014

Facility response: The Surgical Staff committee is scheduled to meet monthly. The
Chief of Staff was included on membership as of June 1, 2014. Alternatives to
scheduling dates are in the process of review to ensure Chief of Staff availability for
attendance.

National Surgery Office (NSO) reports are scheduled for reporting and analysis on the
month following release of the quarter and annual reports.

Validation of compliance will be submission of Surgery Committee attendance logs and
excerpts from Surgery Committee minutes reflecting discussion and analysis of NSO
data.




VA OIG Office of Healthcare Inspections                                                         23
                                CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


Recommendation 6. We recommended that processes be strengthened to ensure that
the quality of entries in the electronic health record is reviewed and data analyzed at
least quarterly and that the review of electronic health record quality includes most
services.

Concur

Target date for completion: December 31, 2014

Facility response: Medical Records committee meets monthly and reviews and analyzes
Electronic Health Record (EHR) quality of documentation data quarterly for Medical,
Surgical, Mental Health, Dental, Extended Care and Rehabilitation and Nursing. Quality
data not meeting the identified performance standard of 90% will require action plans for
submission to committee for review and analysis. Medical Records Committee Charter
to be revised to reflect changes in reporting schedule requirement.

Validation of compliance will be submission of revised reporting schedule, revised
charter, and excerpts of Medical Records Committee reflecting 2 quarters of reporting,
discussion and analysis of data for each of the identified services.

Recommendation 7. We recommended that processes be strengthened to ensure that
the Blood Utilization Committee member from Surgery Service consistently attends
meetings.

Concur

Target date for completion: October 1, 2014

Facility response: The VA Black Hills Health Care System has revised the Blood
Utilization Committee membership to be in compliance with the VHA Directive. Revised
membership has been present at the past two quarterly meetings dated March 18, 2014
and May 20, 2014 respectively. Membership attendance will be reported to the Clinical
Executive Council with submission of the minutes.

Validation of compliance will be submission of attendance roster from 3 quarterly
meetings.

Recommendation 8. We recommended that processes be strengthened to ensure that
infection prevention educational materials are available for eye clinic patients, visitors,
and family members.

Concur

Target date for completion: October 1, 2014

Facility response: Infection Prevention pamphlets distributed to the Ft. Meade Eye clinic
on May 22, 2014 and at the Hot Springs eye clinic on May 23, 2014. Education to



VA OIG Office of Healthcare Inspections                                                         24
                                CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


100% Specialty Clinic employees on the presence of the education material and
restocking process of education material to be completed by July 1, 2014

Compliance will be monitored by monthly rounds by the Infection Prevention
Coordinator and continue until 90% of units rounded have infection prevention
educational material for 3 consecutive months. Data that will be collected will be:

Numerator = # of clinical areas with infection prevention education material

Denominator = # of clinical areas audited

Recommendation 9. We recommended that processes be strengthened to ensure that
employees reprocess ophthalmology lenses and pachymetry probes in accordance with
manufacturers’ instructions and that compliance be monitored.

Concur

Target date for completion: December 31, 2014

Facility response: The VA Black Hills Health Care System has revised the Standard
Operating Procedures for the Volk lens and the DGH Pachymeter according to
manufacturer’s instructions and approval by the Reusable Medical Equipment
Committee received by June 20, 2014. Education of 100% of required staff will be
completed by July 15, 2014.

Validation of compliance with reprocessing will occur by direct observation of
reprocessing of the DGH Pachymeter by unit manager or SPS Chief for 30 days or until
competency achieved. Results will be presented for discussion and analysis by the
Reuseable Medical Equipment Committee (RME) on a monthly basis unit 3 consecutive
months of 90% or greater compliance is achieved.

Recommendation 10. We recommended that processes be strengthened to ensure
that patient learning assessments are documented within 8 hours of admission and that
compliance be monitored.

Concur

Target date for completion: December 31, 2014

Facility response: Patient learning assessments are documented within 8 hours of
admission. Learning assessments which will include specific deficits such as vision,
hearing, ability to read, and cognitive status will be added to the Nursing admission
template by October 1, 2014. Changes to the nursing admission template is a
collaborative effort by Nursing leaders and clinical application staff.

Education on additional documentation requirements will be completed by
October 1, 2014. The process for monitoring compliance will be implemented on



VA OIG Office of Healthcare Inspections                                                         25
                                CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


October 1, 2014 and be measured monthly until targeted performance of 90% for
3 consecutive months is achieved.

Data audited:

Numerator = # of records in compliance with learning needs assessment completed on
admission and discharge

Denominator = the # of patient records reviewed

Recommendation 11. We recommended that the facility develop an acute ischemic
stroke policy that addresses all required items, that the policy be fully implemented, and
that compliance be monitored.

Concur

Target date for completion: November 1, 2014

Facility response: The VA Black Hills Health Care System will develop a policy defining
the treatment of Acute Ischemic Stroke (AIS) for a Limited Hours facility level of care as
required by VHA Directive by August 1, 2014. Education of VA Black Hills Health Care
System identified staff will be completed by August 31, 2014.

The infrastructure at the VA BHHCS will be reviewed with VHA and VISN to ensure
compliance with a Limited Hours facility designation.

Validation of compliance with VHA Directive and the facility policy will be monitored
through the Critical Care Committee (CCC) and reported to leadership through the
Clinical Executive Council (CEC) on a quarterly basis. Excerpts from CCC and CEC
minutes reflecting compliance from the October 2014 meeting will be submitted.

Recommendation 12. We recommended that processes be strengthened to ensure
that clinicians complete and document National Institutes of Health stroke scales for
each stroke patient and that compliance be monitored.

Concur

Target date for completion: November 1, 2014

Facility response: The VA Black Hills Health Care System will initiate completion of the
National Institutes of Health (NIH) stroke scales by August 1, 2014 post completion of
education of 100% of Emergency Department, Urgent Care and ICU staff on the NIH
stroke scale.

Validation of compliance will be review of the data on completion of the required
elements, discussion and analysis monthly at the Critical Care Committee (CCC) with
compliance reported quarterly to the Clinical Executive Council demonstrating a
minimum 3 consecutive months of 90% performance.


VA OIG Office of Healthcare Inspections                                                         26
                                CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


Recommendation 13. We recommended that stroke guidelines be posted on all acute
inpatient units.

Concur

Target date for completion: July 31, 2014

Facility response: The VA Black Hills Health Care System will post the facility stroke
flowchart for recognition and treatment of AIS according to local policy in all outpatient
and inpatient areas by July 31, 2014.

Recommendation 14. We recommended that the facility collect and report to the VHA
the percent of eligible patients given tissue plasminogen activator, the percent of
patients with stroke symptoms who had the stroke scale completed, and the percent of
patients screened for difficulty swallowing before oral intake.
Concur

Target date for completion: November 1, 2014

Facility response: The VA Black Hills Health Care System will collect, review, and
analyze data at the Critical Care Committee monthly and report quarterly through the
Clinical Executive Council. Data will be entered into the IPEC data base as required.

Validation of compliance will include 3 months of collection data, excerpts from Critical
Care Committee minutes and Clinical Executive Council minutes reflecting discussion
and analysis of the required data.

Recommendation 15. We recommended that processes be strengthened to ensure
that contrast reaction drills are conducted in the magnetic resonance imaging mobile
unit at the Hot Springs division and that compliance be monitored.

Concur

Target date for completion: October 1, 2014

Facility response: The VA Black Hills Health Care System strengthened the process for
completion of the required MRI safety drills including Contrast Reaction at both the
Ft. Meade and Hot Springs site by developing a Standard Operating Procedure (SOP)
identifying the schedule for completion.

The VA Black Hills has completed mock contrast drills at both locations as of
June 20, 2014. Compliance with the completion of the required safety drills will be
reported at the VISN MRI Committee with quarterly reporting to the Clinical Executive
Council by the Medical Director for Radiology.

Validation of compliance will be submission of the SOP, and evidence of completed
drills through September 30, 2014.



VA OIG Office of Healthcare Inspections                                                         27
                                CAP Review of the VA Black Hills Health Care System, Fort Meade, SD


Recommendation 16. We recommended that processes be strengthened to ensure
that all designated Level 1 ancillary staff receive annual level-specific magnetic
resonance imaging safety training and that compliance be monitored.

Concur

Target date for completion: December 31, 2014

Facility response: Current Employees: All designated Level 1 ancillary staff have Talent
Management System (TMS) training module #1345270 MRI Safety-Level 1 assigned to
their annual learning plan. Current compliance rate 95%. Newly Hired Employees: The
process for completion of Level 1 magnetic resonance imaging safety training will be
revised by August 1, 2014 to decrease the time frame for completion to 60 days within
hire at the VA Black Hills Health Care System for all clinical staff. This process includes
the Talent Management System (TMS) training module #1345270 MRI Safety-Level 1.

Validation of compliance will consist of monthly data collection of new employees hired
from August 1, 2014 and later and compliance with completion of the required TMS
module post 60 days from hire.

Numerator = # of new clinical employees hired within the monitored month with MRI
Safety Level 1 training completed within 60 days of hire

Denominator = All clinical employees hired within the monitored month




VA OIG Office of Healthcare Inspections                                                         28
                                CAP Review of the VA Black Hills Health Care System, Fort Meade, SD
                                                                                        Appendix E


                 OIG Contact and Staff Acknowledgments
Contact 	               For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite 	                Sarah Mainzer, RN, JD, Team Leader
Contributors 	          Gail Bozzelli, RN
                        Carol Lukasewicz, RN, BSN
                        Mary Noel Rees, MPA
                        Susan Tostenrude, MS
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Jeff Joppie, BS
                        Marc Lainhart, BS
                        Nathan McClafferty, MS
                        Sami O’Neill, MS
                        Patrick Smith, M. Stat
                        Yurong Tan, PhD
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         29
                                CAP Review of the VA Black Hills Health Care System, Fort Meade, SD
                                                                                        Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Midwest Health Care Network (10N23)
Director, VA Black Hills Health Care System (568/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Tim Johnson, John Thune
U.S. House of Representatives: Kristi Noem


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         30
                                    CAP Review of the VA Black Hills Health Care System, Fort Meade, SD
                                                                                            Appendix G

                                                Endnotes

a
  References used for this topic included:

  VHA Directive 2009-043, Quality Management System, September 11, 2009. 

  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011. 

  VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010. 

  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010. 

  VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation 

   Beds, March 4, 2010.
 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
   Cardiopulmonary Resuscitation Committees, October 17, 2008.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 VHA Directive 6300, Records Management, July 10, 2012.
 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
  References used for this topic included:
 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
   Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
   American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
   and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories.
c
  References used for this topic included:

 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.

 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006. 

 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.

 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012. 

 Manufacturer’s instructions for Cipro® and Levaquin®.

 Various requirements of The Joint Commission.

d
  References used for this topic included:

 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements, 

   July 29, 2009.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
e
  The references used for this topic were:
 VHA Directive 2011-038, Treatment of Acute Ischemic Stroke, November 2, 2011.
 Guidelines for the Early Management of Patients with Acute Ischemic Stroke (AHA/ASA Guidelines),
   January 31, 2013.
f
  References used for this topic included:
 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                        31
                                        CAP Review of the VA Black Hills Health Care System, Fort Meade, SD



g
    References used for this topic included:
	 VHA Handbook 1105.05, Magnetic Resonance Imaging Safety, July 19, 2012.
	 Emanuel Kanal, MD, et al., “ACR Guidance Document on MR Safe Practices: 2013,” Journal of Magnetic
    Resonance Imaging, Vol. 37, No. 3, January 23, 2013, pp. 501–530.
	 The Joint Commission, “Preventing accidents and injuries in the MRI suite,” Sentinel Event Alert, Issue 38,
    February 14, 2008.
	 VA National Center for Patient Safety, “MR Hazard Summary,”
    http://www.patientsafety.va.gov/professionals/hazards/mr.asp.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.




VA OIG Office of Healthcare Inspections                                                                          32
